Audit of USAID/Peru’s Recipient Audit
Inventory
Audit Report No. 1-527-02-010-P
May 8, 2002




        Regional Inspector General / San Salvador
U.S. A GENCY FOR
INTERNATIONAL
 DEVELOPMENT

RIG/San Salvador


May 8, 2002


MEMORANDUM

FOR:               USAID/Peru Director, Thomas Geiger

FROM:              Acting Regional Inspector General/San Salvador,
                   Steven H. Bernstein

SUBJECT:           Audit of USAID/Peru’s Recipient Audit Inventory (Report No.
                   1-527-02-010-P)

This is our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report, which are included in their entirety
in Appendix II.

This report includes two recommendations for your action. Final action has been
taken on Recommendation Nos. 1 and 2, and these recommendations are closed
upon issuance of this audit report.

I appreciate the assistance and cooperation provided to the audit staff on this
assignment.




                                                                                  1
Table of   Summary of Results                                                3
Contents

           Background                                                        3


           Audit Objective                                                   3


           Audit Findings                                                    4


                  Is USAID/Peru’s audit inventory complete and
                  accurate, and were the required audits done in a timely
                  manner?                                                    4


                            Audit Inventory Was Not Complete                 5


                            Required Audits Were Not
                            Done in a Timely Manner                          6


           Management Comments and Our Evaluation                            7


           Appendix I – Scope and Methodology                                9


           Appendix II – Management Comments                                12




                                                                              2
  Summary of      The Regional Inspector General/San Salvador performed an audit to determine
  Results         whether USAID/Peru’s audit inventory is complete and accurate, and whether the
                  required audits were performed in a timely manner. (See pages 3 and 4).

                  USAID/Peru’s fiscal year 2002 audit inventory was accurate. However, the audit
                  inventory was not complete, since 20 awards (or 17 per cent) that should have
                  been included in the audit inventory were not included. The audits were not done
                  in a timely manner, since out of the 27 audits that should have been submitted by
                  September 30, 2001, 23 were submitted late, and 2 were not submitted by the end
                  of our field work. (See pages 4 through 7).

                  USAID/Peru was in general agreement with the findings and recommendations in
                  the report. (See pages 7 through 8).




 Background       Financial audits of contracts and grants are a primary basis for effective
                  management and control of USAID’s program expenditures. These audits are
                  designed to provide USAID management reasonable assurance that transactions
                  are properly recorded and accounted for; laws and regulations, and provisions of
                  contract or grant agreements are complied with; and USAID-financed funds,
                  property, and other assets are safeguarded against unauthorized use or disposition.

                  Automated Directives System Chapter 591, updated January 2002, requires
                  USAID missions to (1) establish an audit management plan; (2) maintain an audit
                  inventory database; and (3) have audits done for non-U.S. grants, contracts, and
                  cooperative agreements that meet the audit threshold.

                  In May 1999, Office of Inspector General management decided to verify the
                  accuracy of USAID missions’ recipient audit inventory worldwide over a period
                  of three years because the lack of audit coverage was perceived as a high-risk
                  area.

                  Our audit covered $155.7 million in USAID/Peru disbursements.




Audit Objective   As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
                  Salvador performed an audit to answer the following question:



                                                                                                   3
                          •    Is USAID/Peru’s audit inventory complete and accurate, and were the
                               required audits done in a timely manner?

                          The audit scope and methodology is presented in Appendix I.



Audit Findings            Is USAID/Peru’s audit inventory complete and accurate, and were the
                          required audits done in a timely manner?

                          USAID/Peru’s fiscal year 2002 audit inventory was accurate. However, the audit
                          inventory was not complete. Moreover, required audits were not submitted in a
                          timely manner.

                          USAID/Peru took several positive steps to implement and manage the recipient-
                          contracted audit program. These steps included:

                          •    Incorporating appropriate provisions into contracts, grants, and cooperative
                               agreements that require recipients to arrange audits whenever the recipients
                               spend $300,000 or more in USAID funds during their fiscal year.

                          •    Maintaining an inventory of contracts, grants, and cooperative agreements
                               requiring audits and maintaining an audit plan to track planned audits.

                          •    Circulating the audit inventory to mission technical offices so that mission
                               staff with first hand knowledge of the activities could verify that the audit
                               inventory was accurate and complete.

                          •    Establishing a Management Control Review Committee that has begun to
                               monitor implementation of the recipient-contracted audit program.

                          •    Designating an Audit Management Officer to coordinate and monitor the
                               recipient-contracted audit program and coordinate follow-up on audit
                               recommendations.

                          USAID/Peru’s fiscal year 2002 audit inventory was accurate. We reviewed a
                          random sample of 70 of the 680 individual data items in the audit inventory and
                          found two errors. One of the errors pertained to an entity (the Instituto de Diálogo
                          y Propuesta) that spent $419,136 in USAID funds and was not scheduled to be
                          audited, even though this amount exceeded the $300,000 threshold established by
                          USAID policy. 1 The second error was that the completion date for one grant was
                          incorrect.



1
 We are not making a recommendation on this issue, since in August 2001 the recipient started the audit firm selection
process.
                                                                                                                         4
                           Based on the information in the preceding paragraph, the observed error rate in
                           our sample was 2.8 percent. The sample design provided 90 percent confidence
                           that the error rate in the population of all 680 data items was below 5 percent (see
                           Appendix I).

                           However, the fiscal year 2002 audit inventory was not complete and most audits
                           were not done on time. These problems are discussed in the following sections.

                           Audit Inventory Was Not Complete

                           Section 591.3.4.2.a. of USAID’s Automated Directive System (ADS) requires
                           that missions maintain an inventory of all contracts, grants, and cooperative
                           agreements. For entities that do not require audit, missions must annotate the
                           specific reason that no audit is required. This practice – including all awards in
                           the inventory and then annotating specific reasons where no audit is required –
                           helps prevent errors and provides a more complete record of the process followed
                           to develop the annual audit plan.

                           Ninety-seven contracts, grants, and cooperative agreements were included in the
                           audit inventory. 2 We reviewed a list of actions signed by the regional contracting
                           officer and found 20 awards that should have been included in the audit inventory,
                           but were not. In other words, 17 percent of the awards that should have been
                           included in the audit inventory were excluded. The total commitment amount
                           excluded from the audit inventory was $2.7 million, or about 1 percent of the total
                           $339 million in commitments that should have been included in the audit
                           inventory.

                           There were several reasons why some awards were not included in the audit
                           inventory:

                           •   Mission staff excluded some small awards from the final audit inventory
                               because they considered the award amounts to be inconsequential. While this
                               reasoning is understandable, the ADS section cited above requires that all
                               awards be included in the audit inventory to help minimize the possibility of
                               error and help document the process used to prepare the final audit plan.

                           •   The mission used source information extracted from the Mission Accounting
                               and Control System (MACS). Using a spreadsheet program, staff sorted the
                               data several times to separate U.S. from non-U.S. recipients and removed
                               purchase orders, personal services contracts, and other types of agreements
                               that do not have to be included in the final audit inventory. These sorting


2
 The 97 contracts, grants and cooperative agreements consisted of 26 U.S. and 71 non-U.S. contractors, international
organizations, and grantees. The 680 data elements mentioned in the prior page refer to the 71 non-U.S. recipients, since the
ADS does not specify the data elements necessary for U.S. recipients. The 680 data elements consist of 68 rows with 10
columns each, and one row does not necessarily correspond to one award given the manner that the data is organized.
                                                                                                                            5
    operations sometimes resulted in records being accidentally removed for
    reasons that we could not determine after the fact.

•   To help maintain the integrity of the information used to prepare the audit
    inventory, staff endeavored to compare the total commitment amounts in the
    audit inventory to the total commitment amounts in the source file every time
    the information was sorted or otherwise modified. However, this control
    technique – verifying commitment amounts through comparison with the
    source MACS report – was not consistently followed throughout the process.
    Therefore, it was difficult to know when awards were deleted from the
    inventory.

Whenever awards are excluded from the audit inventory, mission management is
placed in the position of making decisions based on incomplete information, and
the possibility is introduced that audits may not be planned or performed that
otherwise would have been. Because most of the awards excluded from the audit
inventory were relatively small (below the $300,000 audit threshold) – ranging in
size from $1,500 to $184,230 – in most cases this possibility was relatively
negligible. However, in one case, a $1.8 million award – to the Asociación de
Municipalidades del Valle Rio Apurimac y Ene – was inadvertently excluded
from the audit inventory, resulting in an audit not being planned that was required
by USAID policy. (In addition, as stated on page 4, another award was included
in the audit inventory but not scheduled for audit even though an audit was
required by USAID policy.)

       Recommendation No. 1: We recommend that USAID/Peru:

       1.1     implement controls that provide reasonable assurance
               that all contracts, grants, and cooperative agreements
               are included in the audit inventory; and

       1.2     schedule an audit of the Asociación de Municipalidades
               del Valle Rio Apurimac y Ene.

Required Audits Were Not
Done in a Timely Manner

Chapter 591 of the ADS requires missions to establish an audit management plan
to ensure complete audit coverage of their non-U.S. grantees and contractors. In
addition, OIG’s Guidelines for Financial Audits Contracted by Foreign
Recipients states that reports resulting from these audits are to be submitted to the
cognizant Regional Inspector General audit office within nine months after the
recipient’s fiscal year-end for review and release.

Based on the audit inventory, there were 27 audits that should have been
submitted to the Regional Inspector General/San Salvador during fiscal year

                                                                                    6
                          2001. Two of the 27 audit reports were submitted to the Regional Inspector
                          General/San Salvador within the required nine-month timeframe. Twenty-three
                          audit reports were submitted late 3 and two audit reports 4 still had not been
                          submitted by the end of our audit fieldwork on February 15, 2002.

                          There were two principal reasons why audit reports were submitted late:

                          •    Recipients typically did not arrange for audits until after the end of the year to
                               be audited. This precluded the possibility of performing interim audit work
                               during the year to speed completion of the audit and issuance of the audit
                               report after the end of the year.

                          •    Audits sometimes took an inordinate amount of time to complete because the
                               auditors and auditees were unable to resolve issues involving access to
                               records, scheduling audit work, and disagreements over audit findings without
                               intervention by USAID/Peru. Because we discussed this situation in detail at
                               the exit conference, we are making no recommendation addressing this cause.

                          Because required audits were not completed in a timely manner, USAID/Peru did
                          not have adequate assurance that: (1) audits of non-U.S. recipients were
                          conducted in accordance with USAID requirements, and (2) the recommendations
                          were timely tracked in USAID's Consolidated Audit Tracking System. As a result
                          of the above, we are making the following recommendation:

                                   Recommendation No. 2: We recommend that USAID/Peru:

                                   2.1      as a one-time measure to catch up on audits that are
                                            late, require recipients to arrange single audits to cover
                                            all periods that have not yet been audited in conjunction
                                            with the audits of the current year; and

                                   2.2      require that recipients sign audit contracts no later than
                                            six months before the end of the year to be audited.




    Management            USAID/Peru was in general agreement with the findings and recommendations in
    Comments              the report.
    and Our
    Evaluation            In response to part 1.1 of Recommendation No. 1, USAID/Peru instituted controls
                          to ensure that future audit inventories include all grants, cooperative agreements,

3
  Of the 23 reports, 3 were up to 90 days late, 14 were from 91 to 365 days late, and 6 were over a year late.
4
  In one of the two cases, an audit report was submitted to RIG/San Salvador. However, after this office performed a quality
control review of the audit firm, the report was deemed unacceptable. A report by a different audit firm has not been
submitted yet.
                                                                                                                           7
and contracts, as required, and that the audit inventory will be appropriately
annotated whenever a particular award is not subject to audit in a given year.
Such controls include the reconciliation of the audit inventory with the total
universe of commitments per the Mission Accounting Control System (MACS)
records. With respect to part 1.2 of Recommendation No. 1, USAID/Peru has
asked the recipient to initiate the audit that had been omitted from the FY2002
inventory, and contracting for such audit is now underway.

In response to part 2.1 of Recommendation No. 2, USAID/Peru has arranged with
all recipients concerned, as a one-time measure, for a single catch-up audit to be
performed covering all prior periods yet to be audited in conjunction with the
audit of the current year. With respect to part 2.2 of Recommendation No. 2,
USAID/Peru has instituted a new policy requiring that a letter be sent to each
recipient subject to audit six months before the end of the year to be audited,
recommending that the audit be contracted for without delay. Although
technically this new policy does not directly follow our recommendation, in
considering the mission comments, we agree this is a suitable response to our
recommendation.

Based on the above, final action has been taken on Recommendation Nos. 1 and
2, and these recommendations are closed upon issuance of this audit report.




                                                                                  8
                                                                                     Appendix I


Scope and     Scope
Methodology
              The audit was performed in accordance with generally accepted government
              auditing standards. The audit assessed (1) whether USAID/Peru’s audit
              inventory for fiscal year 2002 was complete and accurate, and (2) whether
              required audits for fiscal year 2001 were performed in a timely manner. In
              assessing whether the audit inventory was complete and accurate, we reviewed
              the fiscal year 2002 inventory since this was the most recent audit inventory
              prepared by USAID/Peru. In assessing whether required audits were completed
              in a timely manner, we reviewed the audits listed in the fiscal year 2001
              inventory, since the audits listed in the fiscal year 2002 inventory were not yet
              due at the time of our audit.

              Fieldwork was performed at USAID/Peru from February 11 through February
              15, 2002 and covered a total of $155.7 million in USAID funds.

              We obtained an understanding of the management controls related to the audit
              objective and assessed risk exposure and control effectiveness. The specific
              control techniques we assessed were the following:

              •   Including appropriate audit provisions in contracts, grants, and cooperative
                  agreements.

              •   Verifying whether the commitment totals in the audit inventory were the
                  same as the commitment totals in the source report drawn from the Mission
                  Accounting and Control System (MACS).

              •   Circulating the audit inventory to mission technical offices so that mission
                  staff with first hand knowledge of the activities could verify that the audit
                  inventory was accurate and complete.

              •   Establishing a Management Control Review Committee that, beginning with
                  a meeting held in January 2002, has begun to monitor implementation of the
                  recipient-contracted audit program.

              •   Designating an Audit Management Officer to coordinate and monitor the
                  recipient-contracted audit program and coordinate follow-up on audit
                  recommendations.

              The audit scope included:

              •   Reviewing the mission’s audit inventories and related documents.




                                                                                                  9
                                                                        Appendix I

•   Interviewing cognizant mission officials.

•   Reviewing the mission’s automated database inventory of contracts, grants,
    and cooperative agreements and identifying those that require audits.

•   Comparing information in the audit inventory with other available sources of
    information as discussed in the following section.

The audit criteria was principally comprised of Chapter 591 of USAID’s
Automated Directives System, revised January 2002, and the OIG’s “Guidelines
for Financial Audits Contracted by Foreign Recipients”.

We did not audit the accuracy of the information in the mission’s MACS
database system because of time constraints and because it was not directly
relevant to our audit objective.

Methodology

To assess whether the audit inventory was complete and accurate, we obtained
the fiscal year 2002 audit inventory and performed comparisons between the
information in the audit inventory and other available sources of information.
We considered error rates of 5 percent or more to be significant. (This threshold
reflects our judgments about the level of performance that is reasonable and
attainable for this part of the audit objective.)

To verify the accuracy of information in the audit inventory, we drew a random
sample of 70 of 680 individual data items in the audit inventory. We verified
these items by:

•   Tracing grantee names, agreement numbers, agreement amounts, and
    agreement start and end dates to agreements and implementation letters.

•   Reviewing MACS reports to verify whether or not expenditures by recipients
    exceeded the $300,000 audit threshold.

•   Reviewing audit reports to verify the dates and coverage of audits listed in
    the audit inventory.

•   Interviewing financial analysts to verify that no previous audits were
    performed where none were listed in the audit inventory.

Given the observed error rate in our sample of 2.8 percent (see page 5), the
sample design provided 90 percent confidence that the error rate in the sample
would be representative of the error rate in the entire population of all 680 data
items with precision of plus or minus 5 percent.


                                                                                     10
                                                                         Appendix I


We determined whether the information in the audit inventory was complete by:

•   Obtaining from the regional contracts office a listing of all contracts, grants,
    and cooperative agreements signed by the regional contracting officer that
    were active during calendar year 2001 and verifying that each of these
    agreements was included in the fiscal year 2002 audit inventory.

•   Obtaining a listing of disbursements from MACS to verify that all entities
    that received USAID/Peru disbursements of $300,000 or more during
    calendar year 2001 were included in the fiscal year 2002 audit inventory.

To determine whether required audits for fiscal year 2001 were submitted in a
timely manner, we obtained the fiscal year 2001 audit inventory. We tested 100
percent of the 30 scheduled audits in the fiscal year 2001 audit inventory.
Specifically, we verified timeliness by reviewing RIG/San Salvador logs
pertaining to those audits, as well as files held by the financial analysts at the
Comptroller’s Office, to see whether required audits listed in the audit inventory
were submitted to the OIG and if so, when. We considered error rates of 10
percent or more to be significant and reportable. (This threshold reflects our
judgments about the level of performance that is reasonable and attainable for
this part of the audit objective.)




                                                                                   11
                                                                                            Appendix II


Management
Comments                                                                         Memorandum


TO     :      Timothy Cox, Regional Inspector General/San Salvador

FROM:         Thomas L. Geiger, Mission Director, USAID/Peru (signed in original)

DATE:         April 6, 2002

SUBJECT:      Audit of USAID/Peru’s Recipient Audit Inventory Draft Report No. 1-527-02-xxx-P



Please find below USAID/Peru’s comments to the subject draft audit report:

USAID/Peru agrees with RIG/SS audit findings regarding the lack of completeness of USAID/Peru’s
fiscal year 2002 audit inventory and the late submission of audit reports related to recipient-contracted
audits.

With respect to completeness, we have coordinated with the recipient concerning initiation of the audit
that had been omitted from FY2002 audit inventory and contracting for the required audit is now
underway. In addition, we have instituted controls to ensure that future audit inventories include all
grants, cooperative agreements, and contracts, as required, and that the audit inventory will be
appropriately annotated whenever a particular award is not subject to audit in a given year. Such
controls include the reconciliation of the audit inventory with the total universe of commitments per the
Mission Accounting Control System (MACS) records.

With respect to the timeliness of audits, we have arranged with all recipients concerned, as a one-time
measure, for a single catch-up audit to be performed covering all prior periods yet to be audited in
conjunction with the audit of the current year. This action will bring USAID/Peru’s recipients fully up-
to-date in audit compliance by the end of 2002. Furthermore, to help ensure that future audits are
completed on a timely basis, USAID/Peru has instituted a new policy requiring that a letter be sent to
each recipient subject to audit 6 months before the end of the year to be audited recommending that the
audit be contracted for without delay to begin the audit process.

Based on the above described actions taken to date by USAID/Peru, we request recommendation that
recommendations No.1 and 2 of subject draft audit report be closed upon final issuance.

We would like to thank you and your staff for the collaborative manner in which this audit was
conducted, and to make my staff and myself available for any additional information or documentation
needed for the successful closure of the audit recommendations.




                                                                                                      12
